No. 20-5489
IN THE

Supreme Court of the United States
RODNEY LAVALAIS,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, CELIA C. RHOADS, do swear or declare that on this date, October 14, 2020,
an electronic version of Petitioner’s Reply Brief in Support of Petition for a Writ of
Certiorari was transmitted to the following:
Jeffery Wall, Acting Solicitor General of the United States
United States Department of Justice
SupremeCtBriefs@usdoj.gov
Counsel for the United States of America
The Office of the Solicitor General advised undersigned counsel via email that
it agrees to electronic service at the address identified above, in light of the COVID-19
pandemic.
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted this 14th day of October, 2020.

/s/ Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
celia_rhoads@fd.org

2

